HHS/OIG-Audit--"Maintenance Payments for For-Profit Child Care Providers Under the Title IV-E Foster Care Program in Illinois, (A-05-99-00004)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Maintenance Payments to For-Profit Child Care Providers Under the Title
IV-E Foster Care Program in Illinois," (A-05-99-00004)
February 23, 2000
Complete Text of Report is available in PDF format
(1.75 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that the Illinois Department of Children and Family
Services' (DCFS) claims processing system was not effective in excluding payments
to for-profit child care providers ineligible for Federal financial participation
(FFP). Section 472 of the Social Security Act requires that foster care payments
be made on behalf of eligible children to nonprofit child placement agencies
and child care institutions. During the period July 1992 through March 1999,
DCFS improperly claimed $11,275,518 (Federal share) for child care payments
to for-profit child placement agencies and institutions. We are recommending
that the Administration for Children and Families work with the State DCFS to
resolve these improperly claimed payments and that DCFS implement controls to
preclude the claiming of FFP for foster care payments made to for-profit child
care providers.